    U.S. DEPARTMENT OF COMMERCE
              Office of Inspector General
 

 




                      Office of the Secretary



             Commerce Should Strengthen
        Accountability and Internal Controls
               in Its Motor Pool Operations



                         Final Report No. OIG-11-004-A

                                       October 27, 2010




             FOR PUBLIC RELEASE


                          Office of Audit and Evaluation
                                                        UNITED STATES DEPARTMENT OF COMMERCE
                                                        Office of Inspector General
                                                        Washington. D.C. 20230




October 27, 20 I0


MEMORANDUM FOR:               Scott B. Quehl, Chief Financial Officer and Assistant Secretary
                                for Administration



FROM:                         A~.'t;;". p~,;p" ~,p~,m0,",,,,
                                and Evaluation
                                                                                    fm   A"d1'
SUBJECT:                      Final Audit Report o. OIG-II-004-A, Commerce Should
                                Strengthen Accountability and Interned Controls in Its Motor
                                Pool Operations

This memorandum transmits our final audit report detailing the results of our audit of the
Department of Commerce's motor pool operations. The audit included a review of the
Department's policies, fleet card transactions, logs for scheduling and tracking vehicle usage,
monitoring of vehicle expenses, and motor pool program oversight. We focused on motor
vehicles used by the Department during fiscal year 2009. In brief, due to the lack of adequate
policies and procedures and a fleet management information system, we were unable to
determine whether government motor vehicles and fleet credit cards were used only for
allowable purposes.

The Office of Administrative Services (OAS) response to our report, included as Appendix B,
concurs with our findings and recommendations. OAS indicated in its response the steps already
taken, as well as the actions planned, to correct internal control deficiencies and implement
accountability over motor pool operations. We will evaluate the corrective action plan and assess
whether the actions taken or planned, if properly implemented, address the findings and
recommendations reported.

We thank the Department and bureau staff for their assistance during this audit. If you have any
questions, please contact me at (202) 482-2754 or Patty McBarnette, Director, Financial
Statement Audits, at (202) 482-3391.



cc:	   Mary C. Pleffner, Director, Office of Administrative Services
       Douglas F. Elmic, Deputy Director, Office of Administrative Services
       Greg Falzetta, Chief, Energy, Environmental & Transportation Division
       Terry Jackson, Chief, Transportation Division
       Trudy Gallic, Audit Liaison, Office of Management & Organization
                             Report In Brief
                                   U.S. Department of Commerce, Ofﬁce of Inspector General
                                                        October 27, 2010


Why We Did This Review Ofﬁce of the Secretary
The Department of Com-
merce acquires and operates      Commerce Should Strengthen Accountability and
motor vehicles to carry out      Internal Controls in Its Motor Pool Operations
ofﬁcial government business;     (OIG-11-oo4-A)
such vehicles may also be
used by ofﬁcers or employees     What We Found
as authorized. The Depart-
ment’s primary source of ve-
hicles is the General Services   Because documentation supporting vehicle use and ﬂeet credit card transactions is
Administration (GSA); the        either inconsistent or nonexistent, we were unable to assess the Department’s compli-
Department also purchases        ance with applicable regulations; we could not determine whether government motor
and leases motor vehicles        vehicles and ﬂeet credit cards were used only for allowable purposes. This resulted
from commercial sources.         from inadequate policies and procedures and the lack of a centralized ﬂeet manage-
The objective of this audit      ment system.
was to determine whether the
Department and bureaus were      The Department does not provide adequate oversight of motor pool vehicle inventory,
operating motor pool vehicles    activity, or cost. Further, the Department has not developed or implemented internal
in compliance with regula-       controls over motor pool operations. As a result, signiﬁcant unreconcilable difference
tions.                           were found between Commerce records and those of JPMorgan Chase and the GSA
                                 vendor. Speciﬁcally,

Background                       • 	 733 JPMorgan Chase ﬂeet credit cards could not be matched with a vehicle.
                                      Transactions on these cards totaled over $1 million.
During FY 2009, the Depart- • 	 339 bureau vehicles could not be matched with a JPMorgan Chase ﬂeet credit
ment owned about 700 ve-              card.
hicles, leased about 100 com- • 	 381 credit cards from the GSA vendor could not be matched with a vehicle.
mercial vehicles, and leased • 	 89 vehicles reported by GSA could not be matched with bureau inventory list-
over 1,400 GSA vehicles at            ings.
a total cost of approximately • 	 52 vehicles had multiple JPMorgan Chase ﬂeet credit cards.
$9.6 million. The Department
pays GSA a monthly lease
fee plus mileage costs. Mo- What We Recommend
tor vehicles that are owned
or commercially leased are
                                 We recommend that the Department (1) develop a centralized ﬂeet management infor-
assigned a JPMorgan Chase
                                 mation system to oversee the use of motor pool vehicles and costs associated with each;
ﬂeet credit card that is used to
                                 (2) implement available JPMorgan Chase fraud training and monitoring tools, (3) update
purchase fuel and pay vehicle
                                 policies and procedures to ensure that credit cards are used appropriately, bureaus main-
maintenance and repair costs.
                                 tain adequate documentation, home-to-work transportation is supported, premium-grade
The Department is respon-
                                 fuel is used only when required in the particular vehicle, accurate odometer readings
sible for monitoring transac-
                                 are recorded when fuel is purchased, and ﬂeet managers and employees receive formal
tions posted to the card, and
                                 training on the use of government vehicles; and (4) revise its charge card management
pays these costs directly to
                                 plan to comply with OMB regulations.
JPMorgan Chase. GSA moni-
tors transactions and pays
the costs associated with its
leased vehicles.
U.S. Department of Commerce                                                                              Final Report No. OIG-11-004-A

Office of Inspector General                                                                                            October 27, 2010 



                                                                 Contents
                                                                          
Introduction..................................................................................................................................... 1 

Findings and Recommendations ..................................................................................................... 2 

   I. The Department Does Not Provide Adequate Oversight of Motor Pool Vehicle Inventory, 

   Activity, or Cost .......................................................................................................................... 2 

      A. 	 Vehicle Inventory and Fleet Credit Card Records are Incomplete .................................. 2 

      B. 	 Fraud Monitoring Tools to Prevent or Detect Credit Card Abuse are Not Used ............. 3 

   II. The Department Has Not Developed or Implemented Internal Controls Over Motor Pool 

   Operations ................................................................................................................................... 4 

      A. 	 Documentation and Records-Retention Policies are Inadequate ..................................... 4 

      B. 	 Government Vehicles Could be Used for Unauthorized Home-to-Work Transportation

           4   

      C. 	 Premium-Grade Fuel Purchases May Have Been Unauthorized ..................................... 5 

      D. 	 Erroneous Odometer Readings Recorded during Fuel Purchases .................................... 5 

      E. Neither Fleet Managers nor New Employees Receive Formal Training ......................... 5 

Summary of Office of Administrative Services Comments and OIG Response ............................ 7 

Appendix A: Objectives, Scope, and Methodology ....................................................................... 8 

Appendix B: Agency Response ...................................................................................................... 9 

U.S. Department of Commerce                                                         Final Report No. OIG-11-004-A

Office of Inspector General                                                                       October 27, 2010 



 
                                                               Introduction

The Department of Commerce acquires and operates motor vehicles to carry out official
government business, including carrying out authorized programs and rendering assistance in
major disasters or emergency situations; such vehicles may also be used by officers or employees
as authorized. The Department’s primary source of vehicles is the General Services
Administration’s (GSA) Interagency Fleet Management System Services; the Department also
purchases and leases motor vehicles from commercial sources.

During FY 2009, the Department owned 709 vehicles, leased 111 commercial vehicles, and
leased 1,478 GSA vehicles at a total cost of approximately $9.6 million. The Department pays
GSA a monthly lease fee plus mileage costs. Motor vehicles that are owned or commercially
leased are assigned a JPMorgan Chase fleet credit card that is used to purchase fuel and pay
vehicle maintenance and repair costs. The Department’s Energy, Environmental &
Transportation Division (EETD) and bureau fleet managers are responsible for monitoring
transactions posted to the JPMorgan Chase fleet credit card; the Department pays these costs
directly to JPMorgan Chase. Vehicles leased from GSA are assigned a Wright Express fleet
credit card; GSA is responsible for monitoring these transactions, which are centrally billed to
GSA.

The objective of our audit was to determine whether the Department and bureaus were operating
motor pool vehicles in compliance with regulations, including those related to home-to-work
transportation. However, because the documentation supporting vehicle use and fleet credit card
transactions is inconsistent or nonexistent, we were unable to assess the Department’s
compliance with applicable regulations. Specifically, we could not determine whether
government motor vehicles and fleet credit cards were used only for allowable purposes. This
resulted from inadequate policies and procedures and the lack of a centralized fleet management
system. Although EETD is responsible for oversight,1 EETD management was unable to assist
us because the division actually provides only minimal oversight of motor pool operations and is
not utilizing monitoring tools currently available. Not utilizing such oversight tools leaves
Commerce at risk for fraud and/or misuse of government vehicles and fleet credit cards.
Appendix A describes the scope and methodology of our audit.




                                                            
1
    Department Organization Order 20-1 section 4 states, “The Office of Administrative Operations (OAO)
    shall …oversee the motor vehicle fleet management program for the Department and serve as liaison with GSA
    on operational programs relating to federal motor vehicle fleet management.” Pursuant to Section 3 of DOO 20-1,
    EETD is a division within OAO that has been delegated responsibility for motor vehicle fleet management.

                                                                     
 
U.S. Department of Commerce                                                               Final Report No. OIG-11-004-A

Office of Inspector General                                                                             October 27, 2010 



 
                                                           Findings and Recommendations


     I.	      The Department Does Not Provide Adequate Oversight of Motor Pool Vehicle 

              Inventory, Activity, or Cost 

Commerce management—through its Energy, Environmental, &Transportation Division
(EETD)—was unable to resolve discrepancies identified because it does not have in place a
centralized fleet management information system, as required by federal law.2 Instead, EETD
relies on the Department’s individual bureaus to correctly track and monitor motor pool vehicle
inventory and usage. As a result of not utilizing a fleet management information system, we
noted the following issues:

       A. Vehicle Inventory and Fleet Credit Card Records
          are Incomplete                                                             Unreconciled differences between
                                                                                     Commerce, JPMorgan Chase,
Lacking a fleet management information system, EETD                                  and Wright Express records:
had to collect inventory data from each Commerce bureau,
                                                                                     ► 733 JPMorgan Chase fleet
in response to our audit request for an inventory of all
                                                                                     credit cards (with transactions
motor pool fleet vehicles held during Fiscal Year (FY)                               totaling over $1 million) could not
2009. The bureaus provided inventory information from                                be matched with a vehicle.
different sources, in varying formats, and with inconsistent
                                                                                     ► 339 bureau vehicles could not
information. Complete vehicle information, including                                 be matched with a JPMorgan fleet
vehicle identification number (VIN) and tag number, are                              credit card.
required to match a motor pool vehicle with a fleet credit
                                                                                     ► 381 Wright Express credit
card. However, some bureaus provided VINs while others
                                                                                     cards could not be matched with
provided only vehicle license numbers.                                               a vehicle.

To verify the accuracy of information provided by                                    ► 40 GSA-leased vehicles could
bureaus, we attempted to reconcile the vehicle inventory                             not be matched with a Wright
                                                                                     Express credit card.
records provided with the FY 2009 GSA Federal
Automotive Statistical Tool (FAST) report. This report is                            ► 89 vehicles reported on the
produced by GSA based on fleet-related data collected                                FAST report were not included on
                                                                                     bureau inventory listings
from federal agencies. The FAST report contained a motor
pool vehicle inventory at September 30, 2009, of 2,298,                              ► 52 vehicles were found to
whereas the inventory provided by bureaus totaled 2,209                              have multiple JPMorgan fleet
vehicles. EETD was unable to resolve the difference                                  credit cards
because it lacks a centralized fleet management
information system.




                                                            
2
    Executive agency motor pool fleets are required to have a centralized system to identify, collect, and analyze motor
    vehicle data with respect to all costs incurred for the operation, maintenance, acquisition, and disposition of motor
    vehicles. See 40 U.S.C. § 17502, 41 C.F.R. § 102-34.340, and 41 CFR § 102-34.347.


                                                                        2
 
U.S. Department of Commerce                                            Final Report No. OIG-11-004-A

Office of Inspector General                                                          October 27, 2010 



We then attempted to match vehicles reported by bureaus to a listing of JPMorgan Chase fleet
credit card transactions covering October 1, 2008 through December 31, 2009 (obtained directly
from JPMorgan). We identified 339 vehicles that could not be matched to a JPMorgan credit
card, and 733 JPMorgan credit cards—with 14,310 transactions ranging from $0.04 to $7,616
and totaling $1,052,843—that could not be matched to a departmental vehicle. Neither EETD
nor JPMorgan could resolve the discrepancy.

Similarly, in comparing bureau inventory listings of GSA-leased vehicles against the Wright
Express fleet credit card database of transactions, our analysis identified 40 GSA vehicles on the
bureau inventory vehicle listing that could not be matched with the Wright Express database of
transactions. We also identified 381 vehicles in the Wright Express database that were not
included in the bureau inventory listings of GSA vehicles. An EETD official was unable to
resolve the discrepancy.

Finally, our analysis also identified 52 vehicles with multiple fleet credit cards. Of these, 47
vehicles were issued two credit cards, and five vehicles were issued three cards. EETD
management was unaware of this and could not explain it. According to EETD officials, while
they do not dispute our findings, they attributed the lack of a centralized fleet information system
to budget constraints.

Based on the results of our data analysis, we have requested follow-up by our Office of
Investigations for several questionable trends we noted regarding vehicle and/or credit card use.



   B. Fraud Monitoring Tools to Prevent or Detect Credit Card Abuse are Not Used
Neither EETD nor the bureaus utilize fraud monitoring tools to prevent or detect credit card
abuse. Tools such as the PaymentNetG Electronic Access System and Expert Monitoring System
are available to the Department. These tools permit queries of fleet credit card databases to
identify unusual transactions that may indicate fraud; once identified, suspicious transactions can
then be researched to determine if the purchase is allowable. According to both EETD
management and bureau fleet managers, available fraud detection tools are not currently used
because fleet managers have not been sufficiently trained to implement the tools and develop
monitoring queries.

We analyzed the JPMorgan credit card transactions database to identify unusual transactions—
such as credit card charges on federal holidays or weekends, multiple daily transactions, and
transactions with unusual vendors—to determine if vehicles or fleet credit cards are being used
for unallowable purposes. EETD, bureaus, and line offices could similarly utilize these fraud
monitoring tools to identify these types of questionable activities in its monitoring of motor pool
operations. However, according to EETD officials, fleet managers have limited resources, and
motor pool responsibilities at the regional offices and centers are usually auxiliary duties. As a
result, fleet managers do not focus full-time on motor pool operations.




                                                 3

U.S. Department of Commerce                                            Final Report No. OIG-11-004-A

Office of Inspector General                                                          October 27, 2010 



II.	 The Department Has Not Developed or Implemented Internal Controls Over Motor
     Pool Operations
Although EETD is required to develop motor pool policies and procedures, our review of its
personal property management manual indicates that the manual does not identify documentation
requirements or standardized forms to be used in motor pool operations. Further, it does not
identify records-retention requirements or internal controls that should be implemented to
prevent or detect misuse of government vehicles or fleet credit cards. The manual was issued in
October 2007, prior to the Department’s contracting with JPMorgan Chase for fleet credit card
services. According to EETD officials, the fleet manager has not updated the policies and
procedures due to time constraints. In addition, EETD officials say, it is difficult for them to get
bureau and line office fleet managers—who perform fleet management tasks as an auxiliary
duty—to comply with policies and procedures. As a result, we noted the following internal
control problems:

   A. Documentation and Records-Retention Policies are Inadequate
Documents supporting use of motor pool vehicles and fleet credit card transactions are not
prepared and retained by the Department and bureaus; fleet managers were unable to
demonstrate that all transactions selected for testing were allowable government costs. We
selected 200 transactions out of 73,054 that occurred during the period under audit. Of the
transactions selected, we received documentation supporting only 11. However, the information
provided was inadequate. Interviews with bureau and operating unit fleet managers revealed that
no standard forms are required to request use of a motor pool vehicle or to record costs
associated with motor pool vehicles. Receipts supporting vehicle usage and fleet credit card
transactions were not consistently provided to fleet managers by motor pool vehicle drivers. In
addition, a fleet manager within the National Oceanic and Atmospheric Administration informed
auditors that motor vehicle records that are prepared need only be kept for 3 months, according
to National Archives and Records Administration General Records Schedule 10, Section 2(a).
However, sections 3 and 4 of the same schedule state that motor vehicle cost and report files may
only be destroyed 3 years after the discontinuance of the ledger, date of the worksheet, or date of
the report. As a result, the risk exists that Department or bureau fleet managers would not be able
to ascertain whether suspected fraud or misuse occurred due to lack of documentary evidence
after just 3 months.

We further found that the Department’s charge card management plan, section 3.5, Record
Keeping, is not in compliance with Office of Management and Budget (OMB) Circular A-123,
Appendix B Revised, Improving the Management of Government Charge Card Programs,
section 2.3, which requires the agency plan to include documentation and records-retention
requirements. While retention requirements are listed in the plan for purchase cards, they are not
listed for fleet credit card records.

   B. Government Vehicles Could be Used for Unauthorized Home-to-Work Transportation
Some bureau officials appear to have used government vehicles for transportation between their
homes and work locations, as well as for other unofficial purposes. However, we were unable to
confirm that any violations of departmental policies occurred because bureaus did not prepare
mileage logs or other vehicle records that auditors could review. Bureau officials interviewed


                                                 4

U.S. Department of Commerce                                          Final Report No. OIG-11-004-A

Office of Inspector General                                                        October 27, 2010 



indicated that they do not use government motor pool vehicles for transportation between an
employee’s home and work location. Without the use of mileage logs or records, government
vehicles could have been used for home-to-work or for personal transportation without being
detected.

   C. Premium-Grade Fuel Purchases May Have Been Unauthorized
We also found that 1,776 JPMorgan Chase credit card transactions—valued at $97,514—
engaged in potentially unauthorized premium-grade fuel purchases, at a greater cost to the
government. Such use is prohibited unless specifically required by the vehicle. EETD officials
were unable to provide us with a listing of vehicles that must use premium-grade fuel. As a
result, such purchases may have been unauthorized.

   D. Erroneous Odometer Readings Recorded during Fuel Purchases
Both Wright Express and JPMorgan fleet credit cards require that odometer readings be recorded
at the time fuel is purchased. The odometer reading provides a record of vehicle mileage and,
because EETD has not developed a policy requiring mileage logs, the odometer reading may be
the only method of tracking vehicle use. We found that 846 out of 12,567 JPMorgan fleet credit
card transactions—having a total dollar amount of $45,435—had erroneous “0” or “999999”
odometer readings recorded during fuel transactions. As a result of erroneous odometer readings
and lack of mileage logs, motor vehicle usage cannot be effectively monitored by management
for impropriety.

   E. Neither Fleet Managers nor New Employees Receive Formal Training
While no formal training on motor pool operating policies and procedures exists for fleet
managers or new employees, according to EETD officials, fleet managers are trained annually at
the Federal Fleet Training Conference. At one regional office, we were told that the
administrative staff instructs new employees that “GSA vehicles are available for official use
only and have to be approved for use and show a valid driver’s license.” However, staff could
not provide us with formal training material used for new employees during orientation. The
current departmental personal property management manual, dated October 2007, also lacks a
formal training policy for fleet managers and new employees.



                                     Recommendations

To strengthen the Department’s motor pool operations, we recommend that the Secretary direct
the Assistant Secretary for Administration to take the following actions:
   1.	 Develop a centralized fleet management information system as required by 40 U.S.C. §
       17503 for all fleet vehicle inventory that enables EETD management to monitor and
       provide adequate oversight over the usage of motor pool vehicles and costs associated
       with each vehicle, whether agency-owned or GSA- or commercially-leased.
   2.	 Implement available JPMorgan Chase fraud training and monitoring tools for preventing
       or detecting fraud in fleet card transactions.


                                               5

U.S. Department of Commerce                                           Final Report No. OIG-11-004-A

Office of Inspector General                                                         October 27, 2010 



    3.	 Update policies and procedures to ensure that
           a.	 motor pool vehicles and fleet credit cards are only used for official government
               purposes;
           b.	 bureaus and operating units maintain adequate documentation—such as standard
               forms required to request a motor vehicle, mileage logs, and records to support
               official government use—for a consistent period of time;
           c.	 all home-to-work transportation via government vehicle is adequately supported;
           d.	 operators of government vehicles do not use premium-grade gasoline fuel unless
               the motor vehicle specifically requires it;
           e.	 all government vehicle operators and employees enter accurate odometer readings
               at the time of fuel purchases; and that
           f.	 fleet managers and new employees receive formal training on the proper use of
               government vehicles.
    4.	 Revise the Department’s charge card management plan, section 3.5, Record Keeping, to
        comply with OMB Circular A-123, Appendix B Revised, Improving the Management of
        Government Charge Card Programs, section 2.3, and include records-retention
        requirements for fleet credit card transactions.



 

                               




                                                6

U.S. Department of Commerce                                          Final Report No. OIG-11-004-A

Office of Inspector General                                                        October 27, 2010 



    Summary of Office of Administrative Services Comments and OIG Response

In response to our draft report, the Office of Administrative Services (OAS) concurred with our
findings and recommendations. As described in Appendix B, OAS has developed a corrective
action plan and has started taking steps to implement accountability and internal controls over
motor pool operations. OAS anticipates that initial corrective measures will be completed in
January 2011, and that longer range steps, such as implementing a fleet management information
system and internal control review program, will be completed in July 2011.

We appreciate OAS’ efforts to quickly identify steps needed to correct the significant
deficiencies noted during our audit of motor pool operations. We will review the corrective
action plan and assess whether the actions, taken or planned, if properly implemented, will
address the findings and recommendations reported.




                                                7

U.S. Department of Commerce                                            Final Report No. OIG-11-004-A

Office of Inspector General                                                          October 27, 2010 



                    Appendix A: Objectives, Scope, and Methodology

Our audit included a review of the General Services Administration’s (GSA) and Department’s
regulations and policies, fleet card transactions, logs for scheduling and tracking vehicle usage,
monitoring of vehicle expenses, and Department motor pool program oversight. We focused on
motor vehicles used by the Department during fiscal year 2009.
We obtained an understanding of internal controls by interviewing Department and bureau fleet
managers with motor pool program and JPMorgan Chase credit card oversight responsibilities,
as well as GSA representatives about the leased vehicles program and Wright Express system.
We reviewed Department Organizational Order 20-1, GSA Guide to Federal Fleet Management,
OMB Circular A-123, Appendix B Revised, Department Personal Property Management
Manual, U.S. Department of Commerce Charge Card Management Plan, and Commerce
Acquisition Manual. We collected credit card transaction data occurring between October 1,
2008 and December 31, 2009, from JPMorgan and between October 1, 2008 and September 30,
2009, from Wright Express. We selected a nonstatistical, judgmental sample of fleet credit card
transactions using unique fraud indicators. Specifically, we identified unusual and/or
questionable credit card transactions, such as charges made on federal holidays, weekends, and
multiple transactions on the same day.
We reviewed the Department’s compliance with provisions of the following regulations: Code of
Federal Regulations (CFR) Section 41 CFR 102-34.347 and 102-34.335(b); and 31 United States
Code§ 1344. Because of the lack of available data, we were unable to determine whether
government vehicles were used to provide unauthorized home-to-work transportation and
whether government vehicles and credit cards were used only for official purposes.

To assess the reliability of computer-generated data, we attempted to reconcile the JPMorgan and
Wright Express vehicle transactions with the vehicle inventory database provided by the
Department and its bureaus. However, as we were unable to reconcile the data and determine its
completeness, we did not rely on the computer-generated information.

We conducted this audit from October 2009 through July 2010 at the Department’s headquarters
in Washington, D.C., under the authority of the Inspector General Act of 1978, as amended, and
Department Organization Order 10-13, dated August 31, 2006. In addition, we conducted this
audit in accordance with generally accepted government auditing standards, which require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objective. We believe the evidence
obtained does provide a reasonable basis for our findings and conclusions.




                                                 8

U.S. Department of Commerce                                 Final Report No. OIG-11-004-A

Office of Inspector General                                               October 27, 2010 



                              Appendix B: Agency Response




                                           9

U.S. Department of Commerce         Final Report No. OIG-11-004-A

Office of Inspector General                       October 27, 2010 





                              10

U.S. Department of Commerce         Final Report No. OIG-11-004-A

Office of Inspector General                       October 27, 2010 





                              11

U.S. Department of Commerce         Final Report No. OIG-11-004-A

Office of Inspector General                       October 27, 2010 



                                

                                

                                

                                

                                

                                

                                

                                

                                

                                

                                

                                

                                

                                

                                

                                

 

 

 

 

 

 




                              12

U.S. Department of Commerce         Final Report No. OIG-11-004-A

Office of Inspector General                       October 27, 2010 





 




                              13

U.S. Department of Commerce         Final Report No. OIG-11-004-A

Office of Inspector General                       October 27, 2010 





  (OAE-19880)

                              14

